HHS/OIG-Audit--"Audit of Risk-Based Medicare Health Maintenance Organization Payments for Out-of-Area Beneficiaries, (A-06-97-00034)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Risk-Based Medicare Health Maintenance Organization Payments for
Out-of-Area Beneficiaries," (A-06-97-00034)
January 14, 1999
Complete
Text of Report is available in PDF format (1.91 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The amount of Medicare reimbursement for services provided a beneficiary enrolled
in a health maintenance organization (HMO) depends, in part, on the beneficiary's
county of residence. This final report points out that the Health Care Financing
Administration (HCFA) made incorrect payments to a HMO chain (which had nine different
Medicare HMO contracts in effect) on behalf of beneficiaries who were reported
living out of the HMO's service areas. Specifically, for the two months reviewed,
our statistical sample showed payments were incorrect or inconclusive for 158 of
200 beneficiaries (79 percent) who were reported living out-of-area. The effect
of the address changes with regard to what the monthly Medicare payments should
have been showed a net underpayment to the HMO of $47,619. The HCFA generally concurred
with our recommendations specifying actions HCFA should take to preclude this problem
in the future.